HHS/OIG-Audit--"Review of Costs Claimed by Dr. Pila Foundation Home Care Program in Ponce, Puerto Rico, (A-02-97-01034)"
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Costs Claimed by Dr. Pila Foundation Home Care Program in Ponce, Puerto Rico," (A-02-97-01034)
September 22, 1999
Complete
Text of Report is available in PDF format (1.47 MB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final report estimates that the Dr. Pila Foundation Home Care Program (Dr. Pila HHA) was paid Medicare funds totaling
at least $857,208 in Fiscal Year 1996 for services that did not meet Medicare reimbursement requirements. A statistical
sample of 100 claims involving 699 services disclosed 87 claims involving 502 services were unallowable for Medicare reimbursement
because services; (1) did not have valid physician orders, (2) did not have evidence that a medical service was performed,
(3) were rendered to beneficiaries who, in the opinion of medical experts, were not homebound, (4) were not, in the opinion
of medical experts, reasonable and necessary, and (5) did not meet the intermittent criteria related to skilled nursing.
We recommended that the Health Care Financing Administration (HCFA) instruct the regional home health intermediary to recover
the estimated overpayments of $857,208. We also recommended that HCFA take steps to ensure home health services billed
to Medicare by Dr. Pila HHA have the proper authorization, appropriate supporting documentation and are otherwise allowable
for reimbursement. The HCFA concurred with our recommendations.